           Office of the Inspector General
           U.S. Department of Justice




          Progress Report on the
         Department of Justice’s
          Implementation of the
        Prison Rape Elimination Act




                          WORKING DRAFT
Evaluation and Inspections Division 15-1     October 2014
                                 EXECUTIVE SUMMARY

       The Prison Rape Elimination Act of 2003 (PREA) required the Attorney
General to promulgate regulations that adopt national standards for the
detection, prevention, reduction, and punishment of prison rape. On June 20,
2012, after notice and comment rulemaking, the Department of Justice
(Department or DOJ) published the National Standards to Prevent, Detect, and
Respond to Prison Rape (Standards). This OIG progress report examines DOJ’s
early efforts to implement and comply with PREA since publication of the
Standards.

       DOJ is responsible for the implementation of the Standards, including
management of the audit process in which facilities demonstrate compliance
with the Standards to an independent auditor. In addition, several DOJ
components have management and operational obligations under PREA. The
Office of Justice Programs (OJP) has been assigned responsibility to manage
PREA implementation, and DOJ components with operational responsibilities
under PREA include the Federal Bureau of Prisons (BOP), the U.S. Marshals
Service (USMS), the Federal Bureau of Investigation (FBI), and the Office of the
Inspector General (OIG). 1 A PREA Working Group has also been formed, in
part to resolve questions regarding interpretations of the Standards.

       The OIG identified several emerging issues with the Department’s
implementation of the Standards. One such issue relates to the USMS’s use of
intergovernmental agreements (IGAs) that allow the USMS to house federal
detainees in state and local detention facilities. The Standards require new or
renewed USMS IGAs with state and local detention facilities to include
language that obligates these facilities to comply with the Standards. However,
the USMS’s IGAs are typically of an indefinite length, and therefore
modifications to the USMS’s existing IGAs are typically made only when the
state or local detention facility (IGA facility) asks for a rate increase or other
modification. Thus, IGA facilities that do not ask for rate increases or other
modifications to existing IGAs could therefore continue indefinitely to hold
federal detainees without a contractual obligation to comply with the
Standards. This issue also affects the BOP and the Department of Homeland

       1  The Standards require the OIG to comply with requirements for external investigative
agencies that conduct investigations of sexual abuse in confinement settings. This progress
report does not assess the OIG’s implementation of PREA due to the inherent conflict that
would be created were this office to evaluate its own compliance with the Standards. We note,
however, that the OIG has provided specialized PREA training to its investigators, conducted a
review of its investigative policies to ensure that they conform to the requirements of PREA and
the Standards, and complied with all BOP requests for PREA-related documentation.


U.S. Department of Justice                                                                     i
Office of the Inspector General
Evaluation and Inspections Division
Security’s (DHS) U.S. Immigration and Customs Enforcement, both of which
sometimes adopt the terms of the USMS’s IGAs when housing inmates and
detainees in state and local facilities.

       Additionally, the Standards place requirements on external investigative
agencies that conduct investigations of sexual abuse in confinement settings,
including investigative entities within the DOJ, related to uniform evidence
protocols, specialized training, and the conduct of investigations. Until
recently, DOJ components’ compliance with these external investigator
standards was evaluated by independent PREA auditors, but new interpretive
guidance from the PREA Working Group has led to independent auditors no
longer making these assessments. According to several members of the PREA
Working Group, including OJP officials, no other mechanism is currently in
place within the Department to assess the compliance of DOJ components
subject to the external investigator standards. We also found that the USMS
cannot ensure its compliance with the external investigative standards because
it does not have an adequate system to identify all USMS investigations where
the requirements apply.

       We identified other potential issues relating to OJP’s management of
PREA implementation. For example, the Standards require agencies that use
IGA and other contract facilities to conduct monitoring “to ensure that the
contractor is complying with the PREA Standards.” Guidance from the PREA
Working Group states that these facilities do not have to be “immediately and
perfectly” compliant with the Standards, but instead must demonstrate
“substantive progress” toward achieving compliance. USMS officials with
whom we spoke expressed uncertainty as to what circumstances would cause
them to deem IGA facilities to be out of compliance with PREA, and therefore
out of compliance with the terms of IGAs, in such a way that they would be
required to remove USMS detainees. These uncertainties may contribute to
inconsistency when assessing the compliance of contract facilities with PREA,
and an unduly lenient interpretation of “substantive progress” could result in
slower implementation of the Standards. Other potential issues we identified
include challenges with development of an online auditing tool, and the need
for increased communication with DHS about the interaction of the Standards
with DHS’s separate standards.

       We also identified several possible issues related to PREA audits at BOP
institutions, including likely difficulties implementing the cross-gender pat-
down standard, challenges locating outside organizations capable of providing
sexual assault support services at BOP institutions, and inconsistencies among
independent PREA auditors’ preliminary assessments of BOP institutions.



U.S. Department of Justice                                                       ii
Office of the Inspector General
Evaluation and Inspections Division
       Because the DOJ’s implementation of PREA is ongoing, we do not make
recommendations to the DOJ about how to address the areas of concern we
have identified. However, we encourage the DOJ and its relevant components
take appropriate action to address the issues described in this report,
particularly the priority challenges highlighted in the conclusion. As PREA
implementation progresses and more facilities across the country undergo
PREA audits and implement PREA, these issues will likely become increasingly
significant if left unresolved.




U.S. Department of Justice                                                 iii
Office of the Inspector General
Evaluation and Inspections Division
                                        TABLE OF CONTENTS

BACKGROUND.......................................................................................... 1
           Scope of the Review................................................................................ 2
PREA IMPLEMENTATION: EMERGING ISSUES ......................................... 2
 I.        USMS Intergovernmental Agreements ............................................... 2
 II.       External Investigator Standards ........................................................ 5
           Assessing Compliance of External Investigator Standards .................... 5
           USMS’s Tracking of Sexual Abuse Investigations in Third-Party
           Facilities ................................................................................................. 7
 III.      OJP Challenges in Implementing PREA ............................................. 8
           Uncertainty as to What “Complying with the PREA Standards” Means
           for IGA Facilities ..................................................................................... 8
           Certifying Enough Auditors to Meet Demand ......................................... 9
           Developing an Online Auditing Tool...................................................... 10
           Coordinating with the Department of Homeland Security .................... 10
 IV.       BOP Audit Challenges ..................................................................... 11
           Cross-Gender Pat-Down ....................................................................... 12
           Inmate Access to Outside Confidential Support Services ..................... 13
           Inconsistency Among Auditors’ Findings ............................................. 13
CONCLUSION ......................................................................................... 14
APPENDIX I: LIST OF ACRONYMS ......................................................... 15
APPENDIX II: OJP RESPONSE TO DRAFT REPORT ................................ 16
APPENDIX III: BOP RESPONSE TO DRAFT REPORT ............................... 37
APPENDIX IV: USMS RESPONSE TO DRAFT REPORT............................. 39
APPENDIX V: OIG ANALYSIS OF COMPONENT RESPONSES ................... 42




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                        BACKGROUND

       The Office of the Inspector General (OIG) examined the progress of the
Department of Justice’s (DOJ) implementation of the Prison Rape Elimination
Act of 2003 (PREA). 2 PREA required the Attorney General to promulgate
regulations that adopt national standards for the detection, prevention,
reduction, and punishment of prison rape. PREA established the National
Prison Rape Elimination Commission (Commission), which studied prison rape
and recommended national standards to the Attorney General on June 23,
2009. The Attorney General subsequently established a PREA Working Group,
chaired by the Office of the Deputy Attorney General, which reviewed the
Commission’s recommendations and developed final standards.

       On June 20, 2012, after notice and comment rulemaking, DOJ published
the National Standards to Prevent, Detect, and Respond to Prison Rape
(Standards). 3 The Standards took effect on August 20, 2012, and apply to all
federal, state, and local confinement facilities. There are separate standards
for four different types of confinement facilities: (1) adult prisons and jails;
(2) lockups; (3) community confinement facilities; and (4) juvenile facilities.

       DOJ and several of its components have management and operational
obligations under PREA. In general, DOJ is responsible for the implementation
of the Standards, including management of the audit process in which facilities
demonstrate compliance with the Standards to an independent auditor.
Agencies are required to audit one-third of their facilities during each year of a
3-year audit cycle, with all facilities audited by the end of the third year. The
first 3-year audit cycle began on August 20, 2013.

      The Deputy Attorney General assigned responsibility for managing PREA
implementation to the Assistant Attorney General for OJP. Within OJP, a
PREA Management Office in the Bureau of Justice Assistance (BJA) manages
PREA-related responsibilities. As part of its responsibilities, the PREA
Management Office manages the BJA’s cooperative agreement with the
National PREA Resource Center (PRC), which provides training, support, and
technical assistance for PREA implementation nationwide. 4

       2   42 U.S.C. §§ 15601 et seq.

       3 In addition to rape, the Standards are designed to prevent, detect, and respond to
sexual abuse and sexual harassment in confinement settings.

       4 The PRC is operated by the National Council on Crime and Delinquency in
conjunction with a variety of partners, including the American Correctional Association, Abt
Associates, American University, The Moss Group, Inc., and Just Detention International.


U.S. Department of Justice                                                                     1
Office of the Inspector General
Evaluation and Inspections Division
       DOJ components with operational obligations under PREA include the
Federal Bureau of Prisons (BOP), the U.S. Marshals Service (USMS), the
Federal Bureau of Investigation (FBI), and the OIG. 5 In addition, other offices
within DOJ help resolve questions regarding interpretation of the Standards
through participation in a PREA Working Group that the PREA Management
Office within BJA coordinates. 6

Scope of the Review

      This progress report examines DOJ’s efforts to implement and comply
with PREA since publication of the Standards on June 20, 2012. 7 Because
implementation is in its early stages, this report identifies challenges that have
arisen thus far and provides notice to DOJ components of areas of PREA
implementation that the OIG has found to be of present concern, or that we
believe may well be of future concern as implementation progresses.

                   PREA IMPLEMENTATION: EMERGING ISSUES

I.     USMS Intergovernmental Agreements

       The USMS is responsible for housing and transporting federal detainees
from the time they are brought into federal custody until they are acquitted,
incarcerated, or released on bond, while the BOP is responsible for federal
prison inmates serving a sentence of imprisonment after conviction for a
violation of the federal criminal code. To meet their needs for detention space,
the USMS and the BOP enter into Intergovernmental Agreements (IGAs), which


        5 The Standards require the OIG to comply with requirements for external investigative
agencies that conduct investigations of sexual abuse in confinement settings. This progress
report does not assess the OIG’s implementation of PREA due to the inherent conflict that
would be created were this office to evaluate its own compliance with the Standards. We note,
however, that the OIG has provided specialized PREA training to its investigators, conducted a
review of its investigative policies to ensure that they conform to the requirements of PREA and
PREA Standards, and complied with all BOP requests for PREA-related documentation.

       6 Offices and components that are designated as part of the PREA Working Group
include the Civil Rights Division, Access to Justice Initiative, OJP, BOP, National Institute of
Corrections, Office on Violence Against Women, and the USMS. Other offices may offer
assistance when appropriate.

       7 To assess PREA implementation at the DOJ, we conducted interviews of DOJ and
non-DOJ officials, reviewed public and internal DOJ documents, and analyzed preliminary and
final PREA audit reports of BOP institutions.



U.S. Department of Justice                                                                         2
Office of the Inspector General
Evaluation and Inspections Division
are formal agreements between the USMS or BOP and a state or local
government to house federal detainees in state and local detention facilities at
an agreed-upon daily rate. As of March 2014, the USMS had 925 actively used
IGAs with state and local facilities across the country. 8 As of April 2014, the
BOP had 123 actively used IGAs. 9 In addition, the BOP and DHS’s
U.S. Immigration and Customs Enforcement (ICE) “ride” on a number of USMS
IGAs, meaning these agencies use the same terms with the facility that the
USMS has negotiated. As of April 2014, the BOP has such arrangements with
100 state and local detention facilities.

       The USMS and BOP have both been proactive regarding inserting PREA
compliance language into contracts with many of their third-party facilities.
BOP has modified all of their contracts with privately operated facilities to
include PREA compliance language, and USMS officials told us that the USMS
also has modified all of its contracts with privately operated facilities. The BOP
has also modified all of its contracts with Residential Reentry Centers (RRCs),
often referred to as halfway houses, to include PREA compliance language.

       In contrast, the USMS has taken a passive approach with regard to
modifying IGAs to include PREA compliance language, generally electing to wait
to insert such language until the facility that has entered the IGA with the
USMS (IGA facility) requests some modification to its existing IGA. The USMS’s
IGAs are flexible agreements that allow the USMS or the state or local facility to
opt out of the agreement at any time. Consequently, IGAs do not terminate on
a given date, but rather last as long as both parties are satisfied with the
agreement. The terms of existing IGAs are most commonly modified when state
or local facilities ask the USMS for an increase in the daily rate that the USMS
pays to house its detainees. Generally, the terms of the IGAs allow state and
local facilities to ask for such rate increases every 3 years. 10

      Under the Standards, the USMS is required to include in any new or
renewed IGA language obligating the state or local facility to adopt and comply
with the Standards, and to monitor such facilities to ensure PREA compliance.


       8 USMS officials told us that, generally, “actively used” IGAs are IGAs with facilities
that have been used in the last year.

       9The BOP uses IGAs primarily for temporarily housing inmates who are being sent
from BOP Residential Reentry Centers (RRC) to BOP institutions.

       10  A previous OIG review found that the USMS could improve how it negotiates IGAs
with state and local facilities. See U.S. Department of Justice Office of the Inspector General,
Audit of the Intergovernmental Agreement Detention Space Negotiation Process, Audit Report 11-
21 (March 2011).


U.S. Department of Justice                                                                       3
Office of the Inspector General
Evaluation and Inspections Division
As of January 2014, the USMS had inserted PREA compliance language into
134 of its 925 (14 percent) actively used IGAs; most commonly, these
modifications were made when IGAs were modified pursuant to a facility’s
request for a rate increase. USMS officials told us they will monitor these
facilities’ compliance with the Standards by the addition of a PREA component
to the existing annual inspections that the USMS conducts of all actively used
IGA facilities.

        Because USMS IGAs are of an indefinite length, the possibility exists that
state or local facilities that hold USMS detainees will continue to do so without
becoming contractually obligated to comply with PREA. USMS officials we
interviewed expressed the belief that most IGA facilities would ask for a rate
increase after 3 years and that PREA compliance language would be added to
many IGAs through this modification and renewal method. The USMS stated
that it therefore did not plan to ask IGA facilities to insert PREA compliance
language into IGAs unless it was a new IGA, a renewal of an IGA, or a
modification to the terms of an IGA. However, USMS officials acknowledged
that some IGA facilities may not ask for a rate increase and, consequently, that
the USMS cannot predict when all IGAs will include PREA compliance
language. 11 As a result, it is possible that the USMS may in some
circumstances have no alternative to housing detainees at noncompliant
facilities. 12 Such a scenario is likeliest in geographically isolated areas where
the USMS has few options for detention space, and among IGA jails, whose
local governments have fewer financial incentives to comply with PREA. 13


       11   Unlike the USMS’s IGAs, the BOP’s IGAs are for a fixed number of years, at which
point both parties must agree to renewal. Many current IGAs have 3-year durations between
renewals, although the BOP is in the process of transitioning to 10-year durations. BOP
officials told us that the BOP is contacting all of its actively used IGA facilities to seek
modifications to include PREA compliance language. We were told that if IGA facilities resist
inserting PREA compliance language into IGAs, the BOP will no longer use those facilities.

       12 After reviewing a draft of this report, the USMS emphasized that, in some areas of
the country, the USMS may not have the flexibility to stop using non-compliant IGA facilities to
house its detainees because no suitable alternate facilities exist.

       13   There are no financial penalties for non-compliant local governments or federal
entities. In contrast, PREA provides that any state that is not in “full compliance” with the
Standards shall be subjected to a 5-percent reduction in any DOJ funds that the state would
otherwise receive for prison purposes for the fiscal year. The state can avoid this reduction if
its governor pledges to spend the funds that the state would otherwise lose on efforts to bring
the state into full compliance. According to the Department, as of June 30, 2014, 49 of the 56
states and territories that are subject to PREA had either announced that they are in
compliance with PREA or had submitted assurances to the Department committing to
spending the relevant DOJ funds to come into compliance. Additionally, BJA and PRC officials
                                                                                        Continued

U.S. Department of Justice                                                                      4
Office of the Inspector General
Evaluation and Inspections Division
        We encourage the USMS to address this issue immediately so as to
avoid, to the best of its ability, the possibility of knowingly housing its
detainees in facilities that are not PREA compliant. Among the options
available to the USMS are: urging its existing IGA facilities to voluntarily agree
to comply with PREA; using PREA as a factor in considering which IGA
facilities to use; and, particularly in areas where no alternate PREA-compliant
facility exists, affirmatively seeking to add PREA compliance language to IGAs,
even in the absence of a facility’s request for a rate increase or other
modification to its IGA.

II.    External Investigator Standards

       The Standards place certain requirements on external investigative
agencies that conduct investigations of sexual abuse in confinement settings.
Generally, these requirements include: (1) following certain protocols for
conducting sexual abuse investigations in confinement settings; (2) having in
place a policy governing the conduct of sexual abuse investigations; and
(3) providing specialized training to investigators who conduct sexual abuse
investigations. The Standards specify that any DOJ component that conducts
investigations in confinement settings must comply with these requirements. 14
During our review, we identified two issues that have prevented the
Department from ensuring its full compliance with the external investigator
standards. Those issues are described below.

Assessing Compliance of External Investigator Standards

       The Standards state that the certified independent PREA auditor shall
make a compliance determination for each standard, including those relating
to external investigative entities, and until April 2014 this continued to be the
case. However, on April 23, 2014, the PREA Working Group issued interpretive
guidance directing auditors to find a facility compliant even if an external
investigative entity is found to be not compliant. 15 Members of the PREA

told the OIG that in the seven states and territories that have neither complied nor submitted
assurances, some individual facilities had requested PREA audits or had them performed.

        14 DOJ components that investigate sexual abuse in confinement settings include the
OIG, FBI, BOP, and USMS. The OIG has primary jurisdiction over cases that involve
allegations of staff sexual abuse, while the FBI has primary jurisdiction over cases that involve
inmate-on-inmate sexual abuse.

       15   OJP provides guidance to auditors by making available an Auditor Compliance Tool
that facilitates evaluating compliance of individual Standards. This tool has been updated to
reflect this new interpretive guidance.


U.S. Department of Justice                                                                       5
Office of the Inspector General
Evaluation and Inspections Division
Working Group told us that the goal of the new interpretive guidance was to
free individual facilities from being held responsible for non-compliance by
external investigative entities.

       While these members told us that this goal was broadly shared among
the members of the PREA Working Group, some members also expressed the
concern that there is no current mechanism by which to determine whether
DOJ external investigative entities are in compliance with the PREA standards.
Several members of the PREA Working Group, including OJP officials,
subsequently confirmed that no such mechanism exists within the Department
to ensure that assessments of the external investigative standards are
conducted. We believe that an assessment of whether DOJ components
subject to the external investigative standards have in place the required
policies and training protocols is an important aspect of PREA’s
implementation.

        In this regard, we note that in at least two instances, independent PREA
auditors who conducted audits of BOP institutions expressed doubt about
whether one such component, the FBI, was in compliance with the external
investigator requirements. In the first instance, an auditor noted in a final
audit report that the Taft Correctional Institution, a BOP owned and contracted
facility, had made repeated requests to the FBI for documentation to
substantiate that the FBI was in compliance with its obligations under the
three standards but had not received such documentation. For each of these
three standards, the auditor specifically noted that the FBI was not compliant,
although the auditor simultaneously found, pursuant to guidance from the
PREA Working Group, that the facility had met each standard.

       In the second instance an auditor reached a similar conclusion based on
an exchange of information between OJP, the FBI, and the BOP. In December
2013, OJP sent a letter to the FBI notifying it of the standards with which the
FBI is required to comply and expressing concern on behalf of the BOP that the
FBI had yet to produce documentation to demonstrate that it was in
compliance with the Standards. In response, the FBI stated that it was in full
compliance with the Standards, but that it did not need to demonstrate that
compliance because it was unaware of any requirement to do so. After the BOP
inquired directly to the FBI about the FBI’s compliance, the FBI sent a letter to
the BOP outlining why it believed it was compliant. The information in this
letter was subsequently provided to at least one independent PREA auditor,




U.S. Department of Justice                                                     6
Office of the Inspector General
Evaluation and Inspections Division
who found that the information was not sufficient to find that the FBI was
PREA compliant. 16

       FBI officials told us that the FBI’s standards and training as they existed
immediately prior to the promulgation of the Standards were already sufficient
to comply with the subsequently promulgated Standards. These FBI officials
stated that even though it does not have policies uniquely applicable to sexual
abuse investigations in confinement settings, the FBI’s current policies that are
applicable to a prison rape investigation are sufficient to meet the Standards’
requirements. Similarly, these FBI officials told us that despite not providing
training exclusively covering prison rape investigations to its agents who might
conduct sexual abuse investigations in confinement settings, the breadth of the
FBI’s criminal investigative training meets the requirement. The officials also
stated that, in part because it conducts so few sexual abuse investigations in
confinement settings – a total of 15 between calendar years 2009 and 2013 –
they do not anticipate that the FBI will conduct any additional training
exclusively applicable to these investigations. 17 They emphasized their view
that no policies or training beyond what the FBI already offers its agents is
required under the Standards.

      We have not attempted to confirm either the independent PREA auditors’
conclusions or the FBI’s statements regarding their compliance with the
Standards. We also note that the PREA Working Group’s April 2014
interpretive guidance directs auditors to find a facility compliant even if an
external investigative entity may not be compliant. However, we believe that
similar questions regarding DOJ components’ compliance with the external
investigator standards could arise in the future. We therefore encourage ODAG
in coordination with OJP, the PREA Working Group, and affected components
to develop a mechanism to assess whether relevant DOJ components have in
place the policies and training protocols required by the external investigator
standards.

USMS’s Tracking of Sexual Abuse Investigations in Third-Party Facilities

      USMS policy authorizes USMS personnel to investigate sexual abuse
allegations by a USMS detainee if the USMS determines that the allegations are

       16   We emphasize that such a finding does not necessarily imply that the FBI had in
fact failed to comply with the Standards.

       17 The FBI stated that these 15 investigations include all full investigations,
preliminary investigations, and assessments that were opened over a five-year period from
2009 to 2013.



U.S. Department of Justice                                                                    7
Office of the Inspector General
Evaluation and Inspections Division
not being properly investigated by other law enforcement entities. USMS
officials told us that USMS personnel are most commonly involved with sexual
abuse investigations in third-party facilities not operated by the USMS, such as
IGA facilities. 18

      During our review, USMS officials determined that the system the USMS
uses to track sexual abuse allegations by detainees in USMS custody does not
capture the data necessary to determine the extent to which USMS personnel
are involved in such investigations. To ensure compliance with these
standards we encourage the USMS to develop a method to identify all USMS
investigations that are subject to the external investigator standards and to
ensure that those standards are met.

III.   OJP Challenges in Implementing PREA

      The Deputy Attorney General assigned the responsibility to manage
PREA implementation to the Assistant Attorney General for OJP. Within OJP,
the BJA manages DOJ’s PREA implementation with the PRC. The following
sections discuss several challenges that OJP faces as it manages this
implementation.

Uncertainty as to What “Complying with the PREA Standards” Means for IGA
Facilities

      The Standards require that new or renewed IGAs include both a
requirement to comply with PREA and that the contracting agency conduct
contract monitoring “to ensure that the contractor is complying with the PREA
Standards.” Guidance from the PREA Working Group states that facilities do
not have to be “immediately and perfectly” compliant with the Standards, but
must demonstrate “substantive progress.” Therefore, the contracting agencies,
including the USMS and BOP, appear to have flexibility in determining whether
IGA facilities that have PREA compliance language included in the terms of the
agreement are PREA compliant.

        However, USMS officials we spoke with were uncertain as to what
circumstances would cause them to deem IGA facilities to be out of compliance
with PREA, and therefore out of compliance with the terms of IGAs, in such a
way that they would be required to remove USMS detainees. The flexibility
afforded the contracting agency under the Standards to determine whether IGA
facilities have demonstrated “substantive progress” toward PREA compliance

       18 The USMS told us that it has not conducted any investigations in the lockups it
operates since creation of its sexual abuse tracking system in February 2012.



U.S. Department of Justice                                                                  8
Office of the Inspector General
Evaluation and Inspections Division
may result in uncertainty on the part of IGA facilities about what, specifically,
they must do to comply with their IGAs. This flexibility may also result in
inconsistency among the contracting agency officials responsible for
determining whether specific IGA facilities have complied with the PREA
compliance language in their agreements. Depending on the circumstances,
this uncertainty could also result in less timely implementation of the
Standards at IGA facilities. Therefore, we encourage ODAG in coordination
with OJP and the PREA Working Group, to develop a method for measuring
“substantive progress” that fosters consistency when assessing PREA
compliance across IGA facilities and promotes the objectives of PREA.

Certifying Enough Auditors to Meet Demand

        The Standards require that one-third of an agency’s confinement
facilities be audited within each year of a three-year audit cycle, and that all
confinement facilities be audited by the end of the third year. The first audit
cycle began in August 2013. The PREA statute itself further provides that any
state for which the governor does not certify that his or her state is in full
compliance with the Standards, including meeting deadlines for conducting
audits, shall be subjected to a 5-percent reduction in any DOJ funds that the
state would otherwise receive for prison purposes for the fiscal year. The
statute also provides that each state can avoid this reduction if its governor
pledges to spend the 5-percent of funds that the state would otherwise lose
solely on efforts to bring the state into full compliance. 19

       The BJA and the PRC are responsible for ensuring that there are enough
certified independent PREA auditors to meet the nationwide demands of
federal, state, and local confinement facilities. As of June 2014, 377 auditors
had been trained, of which 259 had been certified. Every auditor must
undergo a name check through the FBI’s National Name Check Program prior
to certification, and that name check can take months to complete. The BJA
and the PRC anticipate there will be more than 600 DOJ Certified PREA
Auditors by the end of calendar year 2014.

      In March 2014, PRC officials told us that if one-third of the OJP-
estimated 8,000 confinement facilities subject to PREA auditing requirements
were to request an audit before the end of the first year of the audit cycle in
August 2014, there would not be enough auditors to meet nationwide auditing
requirements. However, after the conclusion of the first year of the audit cycle,
OJP officials told us that, factoring in the lack of confinement facility readiness

        19   There are no financial penalties for non-compliant local governments or federal
entities.



U.S. Department of Justice                                                                     9
Office of the Inspector General
Evaluation and Inspections Division
to undergo PREA audits, the number of certified auditors had kept pace with
the PREA audits needed by facilities nationwide.

Developing an Online Auditing Tool

       As part of its responsibilities, the PRC developed an audit instrument
that is used by the independent PREA auditors. The auditor fills out the audit
instrument as he or she assesses each of the applicable standards. Some
standards require assessment of agency-wide policies, while others are specific
to the individual facility being audited. 20

       Currently, the audit instrument is available to auditors only in hard copy
while a partner of the PRC develops an online auditing tool. In our interviews
with BOP officials, we were told that the lack of an online auditing tool has
caused significantly more time to be spent on the administrative portions of
conducting an audit than should be necessary. BOP officials told us that
personnel in its Central Office and facilities have spent many hours supplying
information to auditors in a process that may be sped up through use of the
online auditing tool. A member of the PREA Working Group also told us that at
least one auditor has expressed frustration with the cumbersome process of
completing a preliminary audit report without an online auditing tool.

       BJA and PRC officials told us that the electronic version of the auditing
tool was not in the DOJ’s original PREA implementation plans and that a
decision was made to develop the online auditing tool soon after development of
the audit instrument had begun. They said that they had hoped that the
online auditing tool would be available by the time the first audit cycle began in
August 2013, but that making the online tool compliant with the Federal
Information Security Management Act had delayed its implementation. As of
February 2014, these officials were not able to provide a timeline for completion
of the online auditing tool.

Coordinating with the Department of Homeland Security

      On March 7, 2014, the DHS published its Standards to Prevent, Detect,
and Respond to Sexual Abuse and Assault in Confinement Facilities (DHS’s
PREA Standards). DHS’s PREA Standards are similar to the DOJ’s Standards,
including a similar audit requirement, but they include provisions tailored to
immigration detention facilities that are not part of the DOJ’s Standards.



       20 BOP has established an audit of its Central Office to assess agency-wide policies
annually instead of having PREA auditors assess these policies during every facility audit.


U.S. Department of Justice                                                                    10
Office of the Inspector General
Evaluation and Inspections Division
       In our interviews with BJA officials and members of the PREA Working
Group, we were told that DHS officials have met with DOJ officials to ask
questions about DOJ’s experience creating the Standards, but that there has
yet to be discussion about how the two sets of standards will interact. We
believe that questions about the interaction between the DOJ’s and DHS’s
PREA Standards are certain to arise, and therefore a mechanism for ongoing
coordination will be necessary.

       For example, similarly to USMS and BOP, U.S. Immigration and Customs
Enforcement (ICE) uses state and local confinement facilities to house its
immigration detainees. For facilities used by both ICE and the USMS, ICE
often “rides” on USMS IGAs, meaning it uses the same terms with the facility
that USMS has set out. In these situations, a facility that has PREA
compliance language in its IGA would have to comply only with the DOJ’s
Standards. However, facilities that maintain separate IGAs with DOJ and DHS
may have to comply with both the DOJ’s and the DHS’s standards and undergo
separate audits by DOJ and DHS, the substance of which may substantially
overlap with each other.

       Because questions about the interaction of the two sets of standards are
likely to arise, we encourage OJP and the PREA Working Group to coordinate
with DHS on the respective DOJ and DHS sets of PREA standards to identify
potential implementation issues and to minimize duplication of efforts. We also
encourage coordination with other relevant federal entities should additional,
analogous standards be developed.

IV.    BOP Audit Challenges

        The BOP is the only DOJ component required to undergo PREA audits of
confinement facilities that it operates. 21 There are 120 BOP facilities, each of
which is required to undergo an audit during each 3-year audit cycle. The BOP
entered into a contract with the American Correctional Association to conduct
all of its PREA audits during fiscal year 2014. BOP officials told us that the
BOP was largely already in compliance with PREA when the Standards were
published.

      The BOP’s 14 privately operated contract institutions and 182 RRCs are
also subject to the audit requirement. The BOP has modified all of its
agreements with contract and RRC facilities to include PREA compliance


       21 The USMS’s lockups are not subject to the audit requirement because they are not
used to house detainees overnight.



U.S. Department of Justice                                                               11
Office of the Inspector General
Evaluation and Inspections Division
language. While the BOP must monitor these agreements to ensure
compliance with the contract, hiring an independent auditor and complying
with the Standards are responsibilities of each contract and RRC facility.

       The BOP planned audits for 34 of its institutions and its Central Office
during the first year of the PREA audit cycle, which began on August 20, 2013,
and ended on August 19, 2014. After an analysis that included preliminary
audit reports completed between August 20, 2013, and April 8, 2014, 12
reports showed that the audited facilities ranged from 48-percent compliance
with applicable Standards to 95-percent compliance. 22 However, pursuant to
the Standards, institutions that are found in a preliminary audit report not to
be compliant with an applicable Standard are afforded a 180-day corrective
action period, during which the institution and the auditor develop a corrective
action plan to achieve compliance. BOP officials expressed confidence that all
standards not met in preliminary audit reports would be resolved by the time of
the final audits. As of August 2014, final audit reports had been released for
22 BOP institutions, and all institutions had been found to meet or exceed all
of the applicable Standards. In addition, three reports assessing BOP
institutions containing findings of noncompliance with the PREA Standards
were finalized by PREA auditors and provided to the BOP in 2014, but as of
August 2014 these reports had not been released because BOP was contesting
the findings.

      During our review, we identified several challenges related to audits of
BOP’s facilities, contract facilities, and RRCs. The following sections discuss
these areas in more detail.

Cross-Gender Pat-Down

       We were told by BOP officials that implementing a cross-gender pat-down
restriction will be a significant task for the BOP. This standard, which goes
into effect for select institutions on August 20, 2015, including the BOP, states
that institutions shall not permit cross-gender pat-down searches of female
inmates, absent exigent circumstances. BOP officials said that because only
female staff will be allowed to pat down female inmates, correctional officer
shifts at BOP institutions will need to be adjusted to ensure there is adequate
female staff to conduct such searches. Changes in staff shifts will be subject to
negotiations between the BOP and the national correctional officer union.




       22Unlike final PREA audit reports, preliminary PREA audit reports are not required to
be made available to the public.


U.S. Department of Justice                                                                12
Office of the Inspector General
Evaluation and Inspections Division
Inmate Access to Outside Confidential Support Services

       The Standards require confinement facilities to maintain or attempt to
enter into agreements with community organizations that are able to provide
inmates with confidential emotional support services related to sexual abuse.
The BOP has attempted to assist its institutions in finding and entering into
agreements with such community organizations. In May 2013, the BOP sent a
letter to all of its regional PREA coordinators explaining the requirement and
attached a memorandum of understanding template that could be used by BOP
institutions.

       However, BOP officials stated that many institutions have encountered
challenges finding such community organizations. They told us that some
institutions in geographically remote locations have found it particularly
difficult to locate organizations in their area, and that some organizations
capable of providing the needed services have been unwilling to enter into a
memorandum of understanding with a large BOP institution due to the impact
that such a commitment would have on their personnel and resources.

Inconsistency Among Auditors’ Findings

       BJA officials stated that all auditor applications are scrutinized so that
only those with extensive corrections experience are allowed to train and
become auditors. In general, the DOJ officials we interviewed were satisfied
with the performance of the independent PREA auditors to date. However, in
our review of preliminary audit reports of BOP institutions, we found a number
of inconsistencies among different auditors’ findings. For example, for the
cross-gender pat-down standard, which does not go into effect until August
2015 and is thus not applicable to BOP institutions, most auditors marked
that the standard had not been met, some marked that the standard had been
met, and others marked that the standard was not applicable. While the
inconsistencies we identified were all contained in preliminary audit reports,
not final audit reports, and while these findings pertain to a standard that has
not yet gone into effect, they nevertheless illustrate the potential for PREA
auditors to reach inconsistent conclusions.

      The PRC officials we interviewed also expressed concerns about
inconsistencies among auditors’ findings, particularly regarding standards that
might be incorrectly marked as having been met. They noted that while
standards that are incorrectly marked as having not been met can be fixed
during the 180-day corrective action period, standards that are incorrectly
marked as met are likely to go unnoticed. Any unidentified noncompliance
may therefore not be discovered and cured until the next audit 3 years later.


U.S. Department of Justice                                                    13
Office of the Inspector General
Evaluation and Inspections Division
      Officials from the PRC, as well as a member of the PREA Working Group,
told us that a small amount of inconsistency among auditors is inevitable.
They emphasized that the BJA and the PRC provide auditors with a rigorous
40-hour training course, but that the auditors, who are independent, are left to
make their own determinations and a small amount of inconsistency must be
expected. However, DOJ officials told us that BJA plans to develop a quality
control program, the details of which have not yet been determined.

                                      CONCLUSION

      DOJ and its components have important management and operational
responsibilities under PREA and have made significant progress on the process
of implementing PREA. They also face a number of challenges pertaining to
implementation of the Standards. As PREA implementation progresses and
more federal, state, and local facilities across the country undergo audits and
otherwise implement PREA, many of these challenges, if left unresolved, will
become increasingly significant. In particular, the OIG encourages the
Department and its relevant components to address the following priority
challenges:

    •   USMS develop a plan to address the inclusion of PREA compliance
        language in USMS active IGAs in a more timely fashion.

    •   ODAG in coordination with OJP, the PREA Working Group, and affected
        components develop a mechanism to assess whether relevant DOJ
        components have in place the policies and training protocols required by
        the external investigator standards.

    •   USMS develop a method to identify all USMS investigations that are
        subject to the external investigator standards and to ensure that those
        standards are met.

    •   ODAG in coordination with OJP and the PREA Working Group develop a
        method for measuring “substantive progress” that fosters consistency
        when assessing PREA compliance across IGA facilities and promotes the
        objectives of PREA.

    •   OJP and the PREA Working Group develop a method for coordinating
        with DHS on the respective DOJ and DHS sets of PREA standards to
        identify potential implementation issues and to minimize duplication of
        efforts.




U.S. Department of Justice                                                    14
Office of the Inspector General
Evaluation and Inspections Division
                         APPENDIX I: LIST OF ACRONYMS

BJA           Bureau of Justice Assistance
BOP           Federal Bureau of Prisons
DHS           Department of Homeland Security
DOJ           Department of Justice
FBI           Federal Bureau of Investigation
ICE           U.S. Immigration and Customs Enforcement
IGA           Intergovernmental Agreement
OIG           Office of the Inspector General
OJP           Office of Justice Programs
PRC           PREA Resource Center
PREA          Prison Rape Elimination Act of 2003
RRC           Residential Reentry Center
USMS          U.S. Marshals Service




U.S. Department of Justice                               15
Office of the Inspector General
Evaluation and Inspections Division
              APPENDIX II: OJP RESPONSE TO DRAFT REPORT




U.S. Department of Justice                                16
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            17
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            18
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            19
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            20
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            21
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            22
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            23
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            24
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            25
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            26
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            27
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            28
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            29
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            30
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            31
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            32
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            33
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            34
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            35
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            36
Office of the Inspector General
Evaluation and Inspections Division
              APPENDIX III: BOP RESPONSE TO DRAFT REPORT




U.S. Department of Justice                                 37
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            38
Office of the Inspector General
Evaluation and Inspections Division
             APPENDIX IV: USMS RESPONSE TO DRAFT REPORT




U.S. Department of Justice                                39
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            40
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            41
Office of the Inspector General
Evaluation and Inspections Division
         APPENDIX V: OIG ANALYSIS OF COMPONENT RESPONSES

       The Office of the Inspector General provided a draft of this report to the
Office of Justice Programs (OJP), Federal Bureau of Prisons (BOP), U.S.
Marshals Service (USMS), Office of the Deputy Attorney General (ODAG),
Federal Bureau of Investigation (FBI), and Civil Rights Division (CRT). OJP’s
response is included in Appendix II to this report. BOP’s response is included
in Appendix III. USMS’s response is included in Appendix IV. ODAG, FBI, and
CRT did not submit responses.

      We are encouraged by the responses submitted by some Department
components indicating that they are taking steps to address the challenges
discussed in this progress report. Timely and appropriate action will decrease
the potential that these challenges become increasingly significant as the
number of Prison Rape Elimination Act (PREA) audits increase at federal, state,
and local facilities across the country. The Office of the Inspector General is
committed to ensuring that the Department and its components satisfy their
important management and operational responsibilities under PREA, and will
continue to monitor PREA implementation.




U.S. Department of Justice                                                    42
Office of the Inspector General
Evaluation and Inspections Division
      Office of the Inspector General
        U.S. Department of Justice
            www.justice.gov/oig




The Department of Justice Office of the Inspector General
(DOJ OIG) is a statutorily created independent entity
whose mission is to detect and deter waste, fraud,
abuse, and misconduct in the Department of Justice, and
to promote economy and efficiency in the Department’s
operations. Information may be reported to the DOJ
OIG’s hotline at www.justice.gov/oig/hotline or
(800) 869-4499.
